I

Z-' ■

In the Supreme Court of the United States of America
Case No. 20-7568
June 14, 2021
L.E. Pauli Coffey
v.
State of South Carolina

On Petition for Writ of Certiorari
to the United States Court of Appeals in the 7th Circuit

PETITION FOR REHEARING

L.E. Pauli Coffey
Pro Se

RECEIVED
JUL - 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

'1

TABLE OF CONTENTS
Table of Contents

Pg 2

Table of Authorities

Pg 3

Preamble

Pg 4

Request for Rehearing

Pg 4

Reason for Rehearing

Pg6

Conclusion

Pg 8

2

A

TABLE OF AUTHORITIES
Borden. Jr v. US, US 19~5410, (202l)(oral arguments)ng 6
State of Indiana v. Tyson Timbs Case no. 20S'ML289 (June 10, 2021) page 7
Fed R. Civ. P 12 (a)(l)(A)(i) pages 6,7
Rule 301 (presumptions) pages 6,7
gth, 13th, 14th Amendment /US Constitution pages 4,7
Sanchez v. Mayorkas 20315 (June 7, 2021 SCOTUS) pg 7

3

,w

In the Supreme Court of the United States of America
Case No. 20-7568
PREAMBLE
Pursuant to Rule 44.1 of this Court, Petitioner L.E. Pauli Coffey, respectfully
petitions for a rehearing of the denial of a writ of certiorari to review the judgment
of the United States Court of Appeals for the Seventh Circuit.
Petitioner brought to this court irrefutable evidence that even in the
hallowed halls of our federal judicial system women do not have equal rights in
America. Petitioner brought to this court her original 1983 suit against the state of
South Carolina, case no. 20-CV-00006-JRS-MJD in the U.S. District Court of
Southern Indiana, only AFTER the 7th Circuit en banc twice upheld the wrongful
judgment of Judge James R. Sweeney that the state of South Carolina had the
right, under Sovereign Immunity, to violate Petitioner’s 14th Amendment Right to
Due Process et al, thereby eliminating jurisdiction of his court from Petitioner’s
fight for her Rights as an American Citizen (7th Circuit case number 20-2311).
Judge Sweeney, for lack of a more appropriate word, lied from his bench.

REQUEST FOR REHEARING

1.

As Americans, our 14th Amendment Right to Due Process became law on

June 8, 1866. Passed by the Senate and ratified on July 9, 1868. The 14th
Amendment granted citizenship to all persons born or naturalized in the United
States including formerly enslaved persons and provided all citizens with equal
protections under the laws, extending the provisions of the Bill of Rights to the
states. The amendment authorizes the government to punish states that abridged
citizens’ rights...” [citing www.senate.gov June 10, 2021] Petitioner does not know
if she should email a link to that website to both Judge James R. Sweeney AND the
4

entire 7th Circuit Court of Appeals so that they may pursue some continuing legal
education [CLE] to better perform their jobs, or if it would be a waste of time
because, hopefully, this is information they already have and may have
momentarily forgotten about because a woman was asking for her Rights to be
restored in “their” courts.
2.

Petitioner can prove that she is supposed to have equal rights, as a matter of

law, as Petitioner can produce her American birth certificate. As an American
citizen, Petitioner is supposed to be equal AND she can run for the office of
President.
3.

Unfortunately, Petitioner can also produce a life time of proof that while she

may have been born a free and equal person, her indoctrination into the slavery and
segregation of the subjugation that all women in America must endure, without
relief, began almost immediately after her birth. Petitioner has been forced to walk
two steps behind or accept being abused for refusing to be ignored because of her
gender, as Judge Sweeney justified his actions. Petitioner has been forced to work
three times as hard as any man while simultaneously being forced to accept less pay
than any man. Petitioner can show that she was denied medical care for 101 days
from 2010 to 2011 while men with lesser injuries received prompt medical care.
Subjugating women is as American as baseball, apple pie and USA women’s
gymnastics.
4.

Petitioner did bring to this Court proof and evidence that, collectively, the

state of South Carolina, Judge James R. Sweeney of the District Court of the
Southern District of Indiana and the entire banc of the 7th Circuit Court of Appeals
firmly believe that OUR Constitution is nothing more than a personal hygiene
product, proudly produce in American, and sold globally by the P.T. Barnum toilet
paper company.

5

a.)

Citing Justice Alito, Borden, Jr v. US, US 19-5410, (2021)(oral

arguments)
[ Well, you know, I was" I was on a court of appeals at the time, and
I acknowledged that I had to follow Supreme Court opinions...]
b.)
Judge James R. Sweeney DID NOT follow the Supreme Court
opinions. Judge James R. Sweeney ignored Tyson Timbs and his 2012 Range Rover
v. State ofIndiana (2019). Judge James R. Sweeney ignored EVERY shred of
evidence and citation Petitioner brought to his court. Judge Sweeney didn’t even
bother to acknowledge the Federal Rules of Civil Procedure 12 as he allowed the
state of South Carolina to NEVER respond to Notice of Suit, as evidenced to this
court in Petitioner’s original filing. And upon Petitioner’s request for Default
Judgment when the state of South Carolina refused to respond to timely Notice of
Suit, Judge Sweeney refused to acknowledge Fed. R. Civ. P 12 at all and, instead,
responded by gifting the state of South Carolina sovereign immunity, in the middle
of a pandemic and after the court had been closed, where South Carolina does not
enjoy Sovereign Immunity.
c.)
Not even the 7th Circuit Court of Appeals would follow the Supreme
Court opinion(s) despite being reminded of them by Petitioner in her filings. Nor
did it acknowledge that the state of South Carolina REFUSED to respond to Notice
of Suit and REFUSED to comply with the Federal Rules of Civil Procedure 12 or
Rule 301, as evidenced by Petitioner to the 7th Circuit Court of Appeals. South
Carolina has never responded.

REASON FOR REHEARING
A petition for rehearing should present intervening circumstances of a
substantial or controlling effect or to other substantial grounds not previously
presented. See Rule 44.2.
5.)

Petitioner points out that BECAUSE this court denied Petitioner’s Writ for

Certiorari, despite the obvious and evidenced Constitutional violations committed
6

against Petitioner stripping her other Constitutional rights and irreparably
harming her BY the state of South Carolina, the precedence has been set that Fed
R. Civ. P. 12 has no use and that if any one wishes to avoid a federal suit, one must
merely ignore the federal suit and it will go away in about 21 days and that Rule
301 has no place in a court of law. Further it sets the standard that a district court
Judge may knowingly and intentionally deny a citizen HER Constitutional rights.
America is already grappling with the fallout from the gross inequities that women
have been forced to live with by virtue only of their reproductive organs. Women
have never been defective because we can give birth. But despite OUR 13th and 14th
Amendment Rights on paper, women have always been denied equality, even in the
21st century. This needs to end, once and for all.
6.)

Additionally, On June 10, 2021, the Supreme Court of the state of Indiana,

under case no. 20S-MI-289, did acknowledge and uphold the opinion of the Supreme
Court of the United States of America, that Tyson Timbs does have the 14th
Amendment Right to Due Process and that the specific Due Process was his 8th
Amendment Right to avoid excessive fines. Petitioner did state that she was denied
her 14th Amendment right to many of her Due Processes, one of which was her 8th
Amendment right to avoid excessive fees/fines when the state of South Carolina
demanded four times the estimated value, equivalent to $700,000.00, in bond to
protect Petitioner’s home from sale during appeal of a fake foreclosure valued at
$109,000.00. Clearly Tyson Timbs, a male who admits to dealing and consuming
heroin, has Rights whereas this court has set the precedent that Petitioner, a
female who has not broken the law, is not entitled to Rights. The criminal has once
again been rewarded where a law abiding citizen has been ignored. Generally citing
Sanchez v. Mayorkas, (SCOTUS case number 20‘315)(June 7, 2021)

7

CONCLUSION
For the reasons set forth in this Petition, L.E. Pauli Coffey respectfully
requests this Honorable Court grant rehearing and her Petition for a Writ of
Certiorari and find for Petitioner. We must all be equal in America, as our
Constitution has stated for more than a hundred years. Today would be a great day
for that to finally commence.

X

Respectfully submitted, under penalty of perj/ury
,S7

L.E. Pauli Coffey
3493 Birchwood Ave
Indianapolis, IN

Distributed via PACER/ECF to:

State of South Carolina
Attn: A.G. Alan Wilson
1000 Assembly St #519
A

Columbia, SC
29201

8

46205

nv;

i

In the Supreme Court of the United States of America
Case No. 20-7568
June 29, 2021
L.E. Pauli Coffey
v.
State of South Carolina

On Petition for Writ of Certiorari
to the United States Court of Appeals in the 7th Circuit

CERTIFICATE OF GOOD FAITH
Petitioner, L.E. Pauli Coffey, certifies that her Request for Rehearing is
presented in good faith and not for delay.

Respectfully submitted, under penalty of perjury,

.-^•''LTldLPa u 1 fCo'ffey. ____ / .
------—^

3493 Birchwood Ave
Indianapolis, IN
Distributed via ECF/PACER te­
state of South Carolina
Attn- A.G. Alan Wilson
1000 Assembly St #519
Columbia, SC 29201

46205

In the Supreme Court of the United States of America
Case No. 20-7568
June 14, 2021
L.E. Pauli Coffey
v.
State of South Carolina

On Petition for Writ of Certiorari
to the United States Court of Appeals in the 7th Circuit

O

MOTION FOR LEAVE TO PETITION FOR REHEARING
Comes now Petitioner, L.E. Pauli Coffey, and states that her request for rehearing is for
and is in the greatest interest of the United States of America, so that our Country will
finally embrace and ensure that all persons are equal and all persons enjoy the same rights
and protections under our laws.
Respectfully submitted under penalty of perjury.

LTE Tp a u 1 i ~Coff
rffeX
\

%

3493 Birchwood Ave
Indianapolis, IN

46205

Dist via ECF/PACER to:
State of South Carolina
Attn: A.G. Alan Wilson
1000 Assembly St #519

RECEIVED

Columbia, SC
29201

JUN 2 2 2021

r -liiiRTR
j
1

Jljl - S 2W»

i

9r,Fpg^FcSlUERCTL5RSK

'

